<html>
<title> - PROPOSED AMENDMENTS TO AND REAUTHORIZATION OF THE NATIONAL DAM SAFETY PROGRAM ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 PROPOSED AMENDMENTS TO AND REAUTHORIZATION OF THE NATIONAL DAM SAFETY 
                              PROGRAM ACT

=======================================================================

                                (109-93)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                    U.S. GOVERNMENT PRINTING OFFICE

30-663 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)


                                CONTENTS

                               TESTIMONY

                                                                   Page
 Kelly, David P., County Legislator, District 23, Dutchess 
  County, New York...............................................    16
 Maurstad, David I., Director, Mitigation Division and Federal 
  Insurance Administrator, Federal Emergency Management Agency...     6
 Moore, Ruth A., Deputy Commissioner, Natural Resources and Water 
  Quality, Department of Environmental Conservation, New York 
  State..........................................................    16
 Roth, Larry, Deputy Executive Director, American Society of 
  Civil Engineers................................................    16
 Smith, Kenneth, President, Association of State Dam Safety 
  Officials, Assistant Director, Indiana Department of Natural 
  Resources, Division of Water...................................    16
 Stockton, Steven L., Deputy Director of Civil Works, U.S. Army 
  Corps of Engineers.............................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carson, Hon. Julia, of Indiana...................................    33
Matheson, Hon. Jim, of Utah......................................    37
Michaud, Michael, of Maine.......................................    54
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    65

             PREPARED STATEMENTS SUBMITTED BY THE WITNESSES

 Kelly, David P..................................................    35
 Maurstad, David I...............................................    39
 Moore, Ruth A...................................................    56
 Roth, Larry.....................................................    69
 Smith, Kenneth..................................................    83
 Stockton, Steven L..............................................   116

                       SUBMISSIONS FOR THE RECORD

 Maurstad, David I., Director, Mitigation Division and Federal 
  Insurance Administrator, Federal Emergency Management Agency, 
  responses to questions from Rep. Shuster.......................    46
 Moore, Ruth A., Deputy Commissioner, Natural Resources and Water 
  Quality, Department of Environmental Conservation, New York 
  State, responses to questions from Rep. Shuster................    61
 Roth, Larry, Deputy Executive Director, American Society of 
  Civil Engineers, responses to questions........................    75
 Smith, Kenneth, President, Association of State Dam Safety 
  Officials, Assistant Director, Indiana Department of Natural 
  Resources, Division of Water, responses to questions...........    92
 Stockton, Steven L., Deputy Director of Civil Works, U.S. Army 
  Corps of Engineers, responses to questions from Rep. Shuster...   119

                         ADDITION TO THE RECORD

American Rivers, Rebecca Wodder, President, letter, July 25, 2006   122


 PROPOSED AMENDMENTS TO AND REAUTHORIZATION OF THE NATIONAL DAM SAFETY 
                              PROGRAM ACT

                              ----------                              


                        Wednesday, July 26, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Economic Development, Public Buildings and 
            Emergency Management, Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, The Honorable Bill 
Shuster [Chairman of the subcommittee] presiding.
    Mr. Shuster. The Subcommittee will come to order.
    First, I would like to ask unanimous consent that our 
colleagues, Mrs. Kelly of New York and Mr. Matheson of Utah, be 
permitted to sit with the Subcommittee at today's hearing to 
offer testimony and ask questions. Without objection, so 
ordered.
    Welcome, Mrs. Kelly, and welcome, Mr. Matheson. We are glad 
to have you here.
    We are here today to discuss the proposed amendments and 
reauthorization of the National Dam Safety Program.
    Dam safety has been a national and Federal concern since 
President Franklin Delano Roosevelt signed into law the Flood 
Control Act of 1936. The legislation, which authorizes the 
Federal Government to construct flood control systems 
throughout the Nation's high-risk flood zones, was in direct 
response to the deadly floods that hit Johnstown, Pennsylvania 
in 1936.
    After additional dam failures in the 1970s, President 
Carter further expanded the Federal Government's role in 
addressing the dam safety issue by creating the National Dam 
Safety Program we know today.
    Administered by FEMA, the program's mission is to reduce 
the risks to life and property from dam failure in the United 
States. This is achieved through a number of program 
components, which include the National Inventory of Dams, the 
National Performance of Dams Program, and the Dam Safety 
Program Management Tools. The program also helps exchange 
information between Federal and State dam safety partners 
through the National Dam Safety Review Board and the 
Interagency Committee on Dam Safety.
    Funds from the program also benefit research, development 
of information technology, and the training of the State dam 
safety officials who are considered the Nation's first line of 
defense from dam failures.
    Over the past 25 years, the National Dam Safety Program 
helped mitigate the risk of dam failure by providing technical 
and financial assistance to State dam safety officials and the 
80,000 or so dams they oversee. Of great concern to the Nation 
is the ever-growing number of high-hazard dams. These dams, 
whose failure could result in loss of life or severe property 
damage, total over 10,000 nationwide. The increasing number of 
high-hazard dams will continue as our population grows and 
spawns new downstream development.
    The National Dam Safety Program has increased the level of 
knowledge and preparedness to prevent and mitigate the effects 
of dam failures, including the ever-growing number of high-
hazard dams.
    Mr. Kuhl has introduced H.R. 4981, which reauthorizes and 
improves the National Dam Safety Program. Mr. Kuhl has been a 
leader on the issue and I commend him on his efforts to see 
this program reauthorized.
    Mrs. Kelly has introduced H.R. 1105, which amends the 
program to provide funding for repairs to publicly owned dams 
across the United States. This grant program would fund repair 
of the most critical dams, which the Association of State Dam 
Safety Officials estimates is a $10 billion need over the next 
12 years.
    I am proud to be cosponsor of both bills and anticipate 
reauthorization of the program in the near future.
    I, with my fellow Pennsylvanians, understand the need for 
programs such as the National Dam Safety Program. Our region 
has faced numerous costly and deadly floods over the past 200 
years. I look forward to hearing from all of you today, as our 
witnesses.
    And with that, I would like to recognize our Ranking 
Member, Ms. Norton from the District of Columbia, for an 
opening statement, if she has one.
    Ms. Norton. Thank you, Mr. Chairman. I am going to put my 
opening statement in the record except to make one or two 
remarks.
    This is not a controversial bill. I am sure it is a bill 
that the States welcome. The National Dam Safety Program had 
its origins, of course, in the New Deal, when the kind of dam 
safety we were talking about involved what cannot be predicted, 
and that is the kind of floods that States and localities now 
have gotten hold of.
    It is important to understand that while the Federal 
Government has leadership responsibilities, for the most part, 
the Federal Government does not build dams. Who builds these 
dams are private corporations, States, and individuals.
    There are, however, 10,000 dams that are considered to have 
high hazard potential. Their failure could not only result in 
loss of life from hazards, natural hazards, but, of course, 
this bill takes on new meaning in the post-9/11 world. Anyone 
who is dealing with critical infrastructure today really has to 
have an all-hazards approach. And, thus, we look at this bill 
in that important light as well.
    The Federal Government is not a major funder. The Federal 
Government, of course, gives grants. The Federal Government, 
however, at least this Committee has been generous in its 
authorization, $11.8 million. That is almost double the 
authorization last time.
    However, the appropriators appropriate, and we can't 
guarantee how much will be appropriated. We do know that this 
is critical funding for States. By authorizing this bill, I 
think we are exerting leadership, calling attention, as well, 
to States and localities about the importance of dam safety, of 
inspections, of focusing on dam safety for all hazards.
    Here in Washington, as you might imagine, we don't have 
many dams, but I have to tell you we do have one that concerns 
me, it is a small dam called Pierce Mill Dam in Rock Creek 
Park. It is a Park Service dam, but it has significant hazard 
potential.
    I caution everyone to look at their own dams for all of the 
hazards, not only the hazards that have been most feared and 
most common.
    And I thank you very much, Mr. Chairman.
    Mr. Shuster. Thank you, Ms. Norton.
    I would now like to recognize the gentleman from New York 
who has taken up this bill. And since it is my first time 
publicly, I can thank him for taking this bill up. I will pass 
on the words from you, that the first public time I was 
commended for doing this bill, which I did a couple years ago, 
I was to say, in the worlds of Dick Armey, this is a damn good 
bill if this is your first bill to pass.
    So, with that, Mr. Kuhl.
    Mr. Kuhl. Thank you, Mr. Chairman. I was thinking that this 
was a good dam bill.
    [Laughter.]
    Mr. Kuhl. Whichever way.
    But first let me thank you, Mr. Chairman, for your 
commitment to dam safety programs and for holding this 
important hearing today.
    I would also like to thank Representative Jim Matheson for 
working with me on the Dam Safety Act of 2006 and Ruth Moore, 
who is here to testify from the New York State Department of 
Environmental Conservation, for coming to Washington to 
testify.
    In addition, I would also like to thank the other witnesses 
for coming to testify before us.
    During today's hearing, I look forward to discussing the 
current state of the dams in our Country and how we can work 
together to pass effective legislation that will improve the 
safety of dams.
    People forget how vital dams are to all of us. Dams provide 
many benefits, including protection from flooding, a clean 
source of power, safe drinking water, recreational 
opportunities, and irrigation for farming. However, without 
proper maintenance, dams can be hazardous. Their failure or 
improper operation can result in the loss of human life, 
economic loss, lifeline disruption, and environmental damage.
    On the American Society of Civil Engineers' The 
Infrastructure Report Card, our Nation's dams received a 
failing grade of D. This should send a strong and urgent 
message that we must act now. According to the U.S. Army Corps 
of Engineers' national inventory of dams database, there are 
nearly 2,000 dams in New York State, of which 133 lie in my 
congressional district. Of those 133 dams, 30 of them are 
considered to be high-hazardous and 41 are of significant 
hazard. That means if there is a dam failure, there is a high 
risk of death and destruction.
    Some of the hazardous dams in my district include the 
Newton Creek Dam in Chemung County, the Cuba Lake Dam in 
Allegany County, the Gates Creek Dam in Cattaraugus County.
    In addition, of the 133 dams in my district, 38 of them 
were built prior to 1940. These dams pose a particular threat 
to their surrounding area simply because of their age.
    We cannot jeopardize the safety of our citizens, and we 
must take action to repair these hazardous dams. In order to do 
so, we must pass legislation that will grant States and 
localities the necessary tools to fix this very dangerous 
problem.
    I am proud to be the sponsor of H.R. 4981, the Dam Safety 
Act of 2006, which I introduced with Representative Jim 
Matheson. The bill increases the authorization for funding for 
the National Dam Safety Program, an important national program 
administered by the Federal Emergency Management Agency that 
seems to improve the safety and security of the Nation's dams.
    This bipartisan bill provides funding for the next five 
fiscal years, through 2011, for FEMA grants to States for dam 
safety. It will also allow FEMA to continue leading national 
safety efforts. It will augment research, technology transfer, 
communication between State and Federal agencies, and provide 
much needed training for safety dam engineers. The grant 
assistance component of the Act will provide vital support for 
the improvement of State dam safety programs which regulate 95 
percent of the more than 78,000 dams in the United States.
    Along with H.R. 4981, I am proud to be a cosponsor and 
supporter of H.R. 1105, the Dam Rehabilitation and Repair Act, 
introduced by my colleague and my next seat mate, Mrs. Kelly of 
New York. This Act establishes a program within the Federal 
Emergency Management Agency to fund publicly-owned dam 
rehabilitation repairs.
    I am confident that both of these bills take significant 
legislative steps to address our aging dams. I look forward to 
continue working with members of this Subcommittee, 
Representative Matheson and Chairman Shuster particularly, to 
report legislation out of this Committee that protects and 
adequately authorizes funding for our dams.
    Mr. Chairman, I look forward to hearing today's testimony, 
and I yield back the balance of my time.
    Mr. Shuster. Thank you, Mr. Kuhl.
    And now I would like to recognize Mr. Michaud for an 
opening statement.
    Mr. Michaud. Thank you very much, Mr. Chairman and Ranking 
Member, for having this hearing. It is an important issue.
    I know in the State of Maine we have over 1,000 dams in the 
State of Maine, and they are all aging, and safety concern is 
vitally important.
    With that, Mr. Chairman, once again, I want to thank you 
for having this hearing, and would request unanimous consent to 
have the remainder of my opening statement be submitted for the 
record.
    Mr. Shuster. Without objection, so ordered.
    I now recognize Mrs. Kelly.
    Mrs. Kelly of New York. Thank you, Mr. Chairman--and I 
appreciate your allowing me to participate in this important 
hearing--for taking on an issue that has unfortunately been 
ignored at the Federal level for far too long.
    The events over the past year in Massachusetts, Missouri, 
Hawaii, and in my home State of New York have clearly 
demonstrated the need for us to pay more attention to our 
Nation's dam inventory. The recent flooding in the Northeast 
that crippled much of my district in New York's Hudson Valley 
would have been far worse had the vital dam structures 
completely failed.
    The Dam Safety Program in FEMA should be reauthorized to 
continue the work it has fostered over the last 10 years, 
including providing critical training to State engineers and 
establishing unprecedented cooperation between Federal dam 
safety agencies and State dam safety agencies. But the program 
should also be strengthened to provide critically needed 
funding for the repair and rehabilitation of our Nation's aging 
dams.
    My bill, H.R. 1105, the Dam Repair and Rehabilitation Act, 
would provide $350 million over four years to help protect our 
Nation's ailing dam infrastructure. While at first glance this 
number may seem high, it represents only a fraction of the 
actual cost for rehabilitating our dam infrastructure.
    The Association of State Dam Safety Officials, represented 
here today, estimates rehabilitating all the dams in the United 
States would require an investment of $36 billion.
    My legislation represents a wise, but fiscally sound, 
investment: aiding our financial limited State and local 
governments to repair our Nation's most unsafe and unstable 
dams. Passing this bill into law would ensure that our homes, 
small businesses, and local infrastructure won't be put in any 
further risk from failure of a substandard dam.
    H.R. 1105 has 33 cosponsors in the House, including the 
distinguished Chairman of this Subcommittee, Mr. Shuster. And 
we thank you. It has also been endorsed by many of today's 
witnesses, including ASDSO, the New York State Department of 
Environmental Conservation, the American Society of Civil 
Engineers, the Dam Safety Coalition, American Rivers, and a 
constituent of mine who is here to tell us about that burden of 
unsafe dams place on local communities, my friend, David Kelly.
    Incidentally, David is not related to me.
    The Whaley Lake Dam in Pawling, New York has been holding 
back 1.2 billion gallons of water for more than 150 years, and, 
as it continues to age, the residents in the surrounding 
community are becoming increasingly apprehensive. I have been 
working closely with Mr. Kelly and the residents of Pawling to 
find a solution to the threat the dam poses, including 
inserting language into the Water Resources Development Act to 
try to get this dam repaired.
    With the Senate passing the bill last week, I hope that the 
differences between our bills can be resolved quickly in 
conference so that this important funding can be delivered. I 
look forward to hearing Mr. Kelly's testimony and hearing him 
recount for this Subcommittee the numerous obstacles that he 
and the residents of Pawling have tried to overcome because of 
Whaley Lake Dam. His story is representative of countless other 
local officials around this Nation in dealing with crumbling 
dams.
    Mr. Chairman, our local communities simply don't have the 
money to fix all the dams; they need our help. The Dam Safety 
Program Reauthorization Act that is introduced by my colleague 
from New York, Mr. Kuhl, and my bill, H.R. 1105, can provide 
our States with a significant jump start to fixing our Nation's 
dams that we so desperately need. I look forward to the 
testimony of all of the witnesses, and, again, I thank you so 
much for allowing me to sit in on this very important hearing.
    I yield back the balance of my time.
    Mr. Shuster. Thank you, Mrs. Kelly.
    Now I would like to recognize the original sponsor of the 
bill, Mr. Matheson.
    Mr. Matheson. Well, thank you both, Chairman Shuster and 
Ranking Member Norton, for letting me sit in on the 
Subcommittee hearing today, and I certainly want to thank Mr. 
Kuhl for his leadership on the issue and appreciate the 
opportunity to introduce this bill with him.
    And I have a written statement that I would like to ask 
unanimous consent to submit for the record. I won't take all my 
time, I just want to make one observation, and you have heard 
from a number of people here.
    Every State has issues with this. There are dams in every 
State that are critical in terms of the service they provide, 
in terms of water retention or flood control, but they also 
represent a potential hazard. So this is truly a national 
issue, and that is why it is important we are here today to 
talk about this and to continue this program, because it makes 
a difference across this Country.
    And so, with that, Mr. Chairman, I again thank you for the 
opportunity to be here today, and I yield back the balance of 
my time.
    Mr. Shuster. Thank you, Mr. Matheson.
    I would ask unanimous consent that our witnesses' full 
statement be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made part of the 
record, the Subcommittee would request that you summarize them 
today in five minutes. If you would, we would appreciate that.
    We have two panels of witnesses today. Our first panel has 
Mr. David Maurstad, who is Director of Mitigation Division and 
Federal Insurance Administrator at FEMA, and Mr. Steven 
Stockton, who is Deputy Director of Civil Works for the U.S. 
Army Corps of Engineers.
    I would like to thank both of you for being here today. We 
look forward to hearing your testimony.
    Mr. Maurstad, would you proceed first?

 TESTIMONY OF DAVID I. MAURSTAD, DIRECTOR, MITIGATION DIVISION 
    AND FEDERAL INSURANCE ADMINISTRATOR, FEDERAL EMERGENCY 
MANAGEMENT AGENCY; STEVEN L. STOCKTON, DEPUTY DIRECTOR OF CIVIL 
              WORKS, U.S. ARMY CORPS OF ENGINEERS

    Mr. Maurstad. Good afternoon, Chairman Shuster, Ranking 
Member Norton, and members of the Subcommittee. My name is 
David Maurstad. I am the Director of the Mitigation Division in 
the Department of Homeland Security's Federal Emergency 
Management Agency. I appear before you today to testify on the 
need for the reauthorization of the National Dam Safety 
Program.
    FEMA is the lead agency for this program, which provides 
critical support for the operation, maintenance, and 
improvement of our Nation's dams. The need for Federal 
leadership to support dam safety in the United States has never 
been clearer. The reality is that our Nation's dams are getting 
older and, like all things manmade, as they age, more prone to 
failure. It is estimated that 85 percent of dams across the 
United States are 50 years old.
    The National Dam Safety Program provides leadership and 
accountability to identify dangerous dams and recommend ways to 
mitigate the risks associated with them before they become a 
problem. Our number one concern, however, is to mitigate the 
risks to the people who live below America's dams. Since the 
establishment of the National Dam Safety Program in 1979, there 
has been a significant reduction in the loss of life associated 
with dam failures.
    According to the Association of State Dam Safety Officials, 
there were 28 failures in the United States from 1874 to 1979 
resulting in 3,424 deaths, an average of 122 fatalities per dam 
failure. From 1979 to 2004, there were 55 dam failures 
resulting in 28 fatalities, a dramatic reduction in the number 
of fatalities per dam failure.
    In order to maintain this safety record, the program 
focuses primarily on providing financial and technical 
assistance to the States. There are approximately 79,500 dams 
in the United States. Of these, the States regulate 
approximately 63,000. The program offers grant assistance to 
the States supporting improvement of State level dam safety 
programs.
    The program also supports dam inspections; aids in the 
development, implementation, and exercise of emergency action 
plans; offers training for State dam safety staff and 
inspectors; and provides technical and archival research 
programs that includes development of devices to monitor the 
safety of dams.
    As a result of this support, the Nation's dam safety 
continues to improve. In the past eight years, the number of 
emergency action plans for State-regulated high-and 
significant-hazard dams has doubled. The number of dam 
inspections conducted by the States has also increased over the 
past eight years, from approximately 12,000 inspections to 
approximately 14,000 inspections.
    One of the key components of the dam safety program is 
ensuring that dams are owned, operated, and maintained by 
skilled and well trained individuals. Since the inception of 
the National Dam Safety Program, FEMA has supported a strong 
collaborative training program for dam safety professionals and 
dam owners.
    I have focused so far on the program's support to the 
States because they regulate the majority of the Nation's dams, 
but I would like to speak briefly about the role that the 
program plays in keeping Federal dams safe.
    Although the Federal Government owns or regulates only 
about 5 percent of the dams in the United States, many of these 
dams are significant in terms of size, function, benefit to the 
public, and hazard potential. Since the implementation of the 
Federal Guidelines for Dam Safety, the Federal agencies 
responsible for dams have performed an exemplary job in 
ensuring the safety of dams within their jurisdiction.
    All of these agencies have implemented the provisions of 
the Federal guidelines. Many agencies continue to maintain 
comprehensive research and development programs, training 
programs, and have also incorporated security considerations 
and requirements into these programs to protect their dams 
against terrorist threats.
    Although the National Dam Safety Program is a relatively 
small program, FEMA is proud to lead it. The program has helped 
significantly to encourage appropriate actions that address the 
risks associated with the Nation's more than 79,000 dams. 
Through grants, training support, research, data collection, 
and other activities, the program provides a much needed 
impetus for the ongoing safeguarding and protection of people, 
property, and the dams themselves.
    Mr. Chairman, thank you for the opportunity to testify 
before you today, and I would be pleased to take any questions 
from you or other members of the Committee.
    Mr. Shuster. Thank you, Mr. Maurstad. Appreciate that.
    And, Mr. Stockton, you may proceed.
    Mr. Stockton. Thank you, Chairman Shuster, Ranking Member 
Norton, and other members of the Subcommittee. I am Steven 
Stockton. I am Deputy Director of Civil Works for the U.S. Army 
Corps of Engineers. I am a registered professional engineer in 
the State of Oregon.
    I am pleased to be here today and have the opportunity to 
speak to you about the proposed amendments and reauthorization 
of the National Dam Safety Program Act. My testimony today will 
provide a brief discussion of the benefits of the program, the 
need for reauthorization, and the proposed reforms to the 
National Dam Safety Program.
    As far as the benefits of the program, the U.S. Army Corps 
of Engineers operates a large number of dams in the United 
States, and we have been active in promoting dam safety for 
many years. The Corps was a member of the ad hoc committee that 
wrote the Federal Guidelines for Dam Safety in 1979, after dam 
failures occurred early in the 1970s.
    Since that time, the Corps has been active in the 
activities of the Interagency Committee on Dam Safety and also 
with the National Dam Safety Review Board, which was 
established in 1997. The National Dam Safety Review Board has 
been meeting regularly and is active in the development of 
joint Federal and State dam safety policies and training.
    The National Dam Safety Program provides benefits to the 
Nation by reducing risks to life and property from dam failure 
in the United States through an effective dam safety program 
that brings together the expertise and resources of the Federal 
and non-Federal communities in achieving dam safety hazard 
reduction. These benefits are being achieved through the 
publications of various technical guidelines for the dam owner, 
through dam safety training, in Federal and State government on 
inspection and evaluation of dams, through cooperative dam 
safety research, and through publication of the National 
Inventory of Dams.
    The National Dam Safety Program has allowed the Corps to 
leverage its resources through work with other Federal agencies 
and with the various States. The program has improved safety 
programs by providing a forum for the States to share 
information. The National Inventory of Dams lists nearly 80,000 
dams in the United States.
    Since the current version of the National Dam Safety Act 
expires at the end of fiscal year 2000, in order for the Nation 
to continue to realize the benefits to the Nation of the 
program, reauthorization would be required. Workgroups under 
the National Dam Safety Review Board are currently engaged in 
research to improve the safety of dams and the development of 
additional technical guidelines for dam owners.
    Since most of the 80,000 dams in the U.S. are owned by 
private companies and individuals, the National Dam Safety 
Program provides a single point of access for dam safety 
information. The Corps of Engineers believes that the cost of 
providing dam safety for dams operated by the Corps is reduced 
as a result of Corps participation and cooperation in programs 
such as this.
    Most of the proposed amendments in the National Dam Safety 
Program Act are administrative in nature; however, there are 
two amendments that make substantial changes to the program. 
These amendments are: one, the addition of assessment for each 
dam based on inspections completed by either a Federal agency 
or a State dam safety agency to the National Inventory of Dams, 
and, two, the extension of the authorization for 
appropriations.
    The addition of an assessment for each dam to the inventory 
will enhance the value of the inventory when used by various 
emergency agencies and local governments during times of 
natural disasters. The assessments will allow the first 
responders to focus their actions where dam failures are most 
likely to occur. This will save time and possibly lives in 
emergency situations. In addition, these assessments will 
provide information that can assist local governments, public 
utilities, and private individuals when making investment 
decisions concerning property protected by the dams.
    If the proposed legislation is enacted in its current 
version, authorization of appropriations for the National 
Inventory of Dams would increase from $500,000 per fiscal year 
to $1 million per fiscal year to accomplish the addition of the 
assessments to the inventory.
    The current version of the proposed legislation also calls 
for the program appropriations to be increased to allow the 
program to continue at the present level and to improve the 
ability of the National Dam Safety Review Board to evaluate the 
performance of State dam safety programs. We are committed to 
continuing to improve the safety of Federal dams, continuing to 
cooperate with other Federal agencies and the States to reduce 
the risk to public safety in areas located below dams, 
continuing to help decision-makers set priorities for future 
dam safety investments, and continuing to ensure that all 
Americans can make more informed decisions on building homes, 
locating businesses, and purchasing flood insurance based on 
the actual risk of flood and storm damages where they live.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today. I would be pleased to answer any 
questions you may have.
    Mr. Shuster. Thank you, Mr. Stockton.
    My first question is to both of you. I think I get from 
your testimony that you generally support the National Dam 
Safety Act, but there are some changes, I think I hear you 
saying. Could you elaborate on those changes or things that you 
might want to add to it or take out of it? I wasn't quite clear 
on that.
    Mr. Stockton. Yes, sir. This is an excellent program. As 
you know, there are a lot of unmet water resource needs in the 
Nation, this being one of them. Dam safety is of paramount 
importance, and I think what it has really allowed us to 
achieve is a lot of cooperation and collaboration in sharing of 
information with other Federal agencies and State agencies so 
we can leverage technical knowledge, educational materials, and 
those kinds of things.
    With respect to the changes, it basically is adding one of 
the functions, which is to not only include the data that is in 
the National Dam Inventory--which is basically location, size, 
hazard category--but also to include the hazard assessments 
that the States perform on an annual or during their regular 
periodic schedules. We would actually put those in the 
database. Now, those would be there for use by State and 
Federal officials, but not be open to the public. And that is 
the primary change that is in the legislation, which we 
support.
    Mr. Shuster. Okay. So you support it as it is written 
today?
    Mr. Stockton. Yes, sir. Yes, sir.
    Mr. Shuster. Okay. Both of you?
    Mr. Maurstad. Yes, sir.
    Mr. Shuster. Okay. And concerning H.R. 1105, the Dam 
Rehabilitation and Repair Act, what are both your 
organizations' positions on that bill, is that something you 
support? Would you make changes to it that you see?
    Mr. Maurstad. Well, I think that at this point I am not 
sure we have a formal position on the legislation. I think that 
we would certainly have a couple of suggestions that the 
Committee might be willing to entertain. Because of the large 
volume of unmet need, you may want to look at, at least 
initially, looking at one-time only grants per dam. You may 
want to look at making sure that the funding is for those that 
would provide the greatest cost-effectiveness. You may want to 
consider a different cost-sharing scheme, more along the lines 
of equal partners between whoever is responsible for the dam 
and the Federal Government; and look at that whoever the owner 
of the dam is makes a commitment toward the future maintenance 
of the dam.
    Mr. Shuster. So, in other words, you think it has merit, 
but you are concerned about the amount of money and the amount 
of dams that are in the programs.
    Mr. Maurstad. Yes, sir.
    Mr. Shuster. Mr. Stockton, comment?
    Mr. Stockton. Yes, Mr. Chairman. As I stated, there are 
huge unmet needs with respect to dams, and I think we need to 
look at innovative financing mechanisms, because everybody 
realizes there are not enough Federal or State or local dollars 
to do it all themselves.
    Mr. Shuster. Right.
    Mr. Maurstad, over the past few years, FEMA'S role in 
mitigation has become somewhat unclear. Do you still believe 
that the National Dam Safety Program, mitigation program, is 
something that fits under FEMA'S mission still to this day?
    Mr. Maurstad. Oh, very much so. We have gotten good support 
from FEMA and the Department of Homeland Security for 
mitigation programs. There is still very much a commitment to 
reducing the Nation's vulnerability to future risks, regardless 
of whether they are manmade or natural hazard risk, and we are 
certainly supportive and, as I indicated in my testimony, proud 
to be the lead agency for the National Dam Safety Program.
    Mr. Shuster. And we have heard you have had some difficulty 
at FEMA developing a specific criteria to define what a State-
regulated dam is for the purpose of allocating State assistance 
programs. Is that true, are you having some problems with that, 
or have you been able to work that out?
    Mr. Maurstad. It doesn't come to the front of my mind, but 
my sense would be, my response would be if we are having 
difficulties at that, we would continue to work with the 
National Dam Safety Review Board to work out those issues. If 
it is something that is overdue, we will have to get on top of 
it. But we have a good working relationship with the National 
Dam Safety Review Board and the Association of State Dam Safety 
Officials, so there is no reason in my mind to believe we can't 
resolve that issue.
    Mr. Shuster. Okay. Thank you.
    At this time I recognize Ms. Norton for questions.
    Ms. Norton. Thank you, Mr. Chairman. I just have a couple 
of questions.
    One to Mr. Maurstad. The testimony about dams that may in 
fact be at risk, and gathering that data in one place, I 
applaud, particularly given FEMA'S post-9/11 concerns. 
Something like 10,000 dams have the potential for loss of life 
or property, and yet these dams, most of them, I understand, 
have been built by private individuals or corporations, or 
owned by private individuals and corporations, not States. I 
can understand that you would want to gather--or I am sorry, I 
guess this is Mr. Stockton who would want to gather this 
information about at what risk these dams are in one place, and 
it does seem to me that a certain amount of that information 
you would not want to be public. But my question, first, am I 
correct that most dams are owned by individuals or 
corporations?
    Mr. Stockton. Yes, ma'am, that is correct.
    Ms. Norton. Now, it does seem to me--and I have to ask you 
this question--while there are certain kinds of information, of 
course, that we would want not to be public, it does seem to me 
that, to the extent that these dams need some repair or 
attention, the general public has the right to know and to 
bring the pressure that in a democracy you bring. But if you 
don't know that you are sitting right there where there is a 
high-risk dam, either because the risk is a natural hazard or a 
terrorist hazard, you are just sitting there while the poor 
data collectors gather their data and kind of talk among 
themselves and perhaps talk to those who own the dam. Where is 
the pressure going to come from to in fact remedy the problems 
that you discover and put in the database?
    Mr. Stockton. Yes, ma'am. Currently, we are posting what 
hazard categories each of the dams poses, but that is kind of a 
gross classification. What we would not publish are the 
detailed information that would expose the critical flaws--
    Ms. Norton. So what you are publishing, you mean even now, 
says what, for example?
    Mr. Stockton. Yes, ma'am
    Ms. Norton. What does it say now? Give me typically what 
you can learn from what you have been able to post or intend to 
post.
    Mr. Stockton. It is a public website that has, you know, 
name, location, capacity, height, general characteristics, as 
well as the hazard classification of that project.
    Ms. Norton. And the hazard classification tells you, okay, 
this is hazard classification what, A, 1, 2? What is it, 
please?
    Mr. Stockton. The hazard classification system is explained 
and does rank them by risk of damage that they pose.
    Ms. Norton. It does seem to me that that is information 
that needs to be made public. The details of it, the public 
can't much handle anyway, since it is technical information, 
but it does seem to me that what you are doing to gather the 
data could not be more important, and acting on the data is 
important. How do you get the individuals and corporations to 
act on the data? Who does that?
    Mr. Stockton. The responsibility for regulation of the non-
Federal dams--the Federal agencies are responsible for managing 
their own, but the States have the primary responsibility for 
regulation of dams within each State.
    Ms. Norton. Just as any public funding usually comes from 
the State, as well, I take it.
    Mr. Stockton. Yes, ma'am.
    Ms. Norton. Have they been doing a decent job of regulating 
so that, if you expose hazards, the State then does its job and 
gets the owner to attend to the hazard?
    Mr. Stockton. I think, generally speaking, the States have 
been doing an incredibly good job. That said, each State, it 
depends on the resources that they have available and can 
devote to this, and was stated in prior testimony, I think 
there are some critical needs.
    Ms. Norton. Yes. Well, I think this authorization will help 
if for no other reason than to draw attention to the issue.
    Let me ask you one more question. The WRDA bill, finally, I 
understand, has just passed. That is a bill that Congress has 
passed three times, and I understand it has just passed the 
Senate. I just have a question. I understand you have started, 
the Corps of Engineers has started on a section of that bill 
that I have in Werter but, frankly, did not even need 
congressional authorization, and that is a comprehensive plan 
for cleanup of the Anacostia River. This is a river literally 
three blocks from the Capitol, runs, a dirty, nasty river with 
storm water overflow and all that goes with it. Can you give me 
information on where you are on the comprehensive for cleanup 
of the Anacostia?
    Mr. Stockton. Yes, ma'am. The Water Resources Development 
Act just passed the Senate last week. The version that passed 
the House was, I think, about two years ago. I believe--and I 
would have to verify this fact--that the feasibility report, 
the authorization language to actually authorize the Anacostia 
River cleanup would actually be in the House and Senate bill. 
But I would have to confirm that.
    Ms. Norton. Is my information correct or not, that you have 
already started on a comprehensive plan, or have you been 
waiting for--which apparently was in your authority to do it 
and you have paid some considerable attention to the Anacostia. 
Have you started on it or have you been waiting for the Werter 
bill to pass?
    Mr. Stockton. I believe we have--and I will have to confirm 
this for the record, but I believe we have completed the study 
process. The request for authorization is in the versions of 
Werter in the House and the Senate, but it has not been funded 
for construction or authorized for construction, excuse me.
    Ms. Norton. I wonder if you would transmit to my office a 
copy of the plan so that I can see what work you have been 
doing.
    Mr. Stockton. Yes, ma'am.
    Ms. Norton. Thank you very much, Mr. Stockton.
    Mr. Shuster. Thank you.
    I now recognize Mr. Kuhl for questions.
    Mr. Kuhl. Thank you, Mr. Chairman. I just have a couple 
questions.
    Statistically, it looks as though, at least for the last 10 
years, since FEMA has been in control over the dam safety 
project, that the actual number of dams that have now become 
unsafe has increased. Is that correct? Is the information I am 
getting correct?
    Mr. Maurstad. I think that would be correct, and it is 
because, as I indicated, as the dams get older, they become 
naturally more unsafe if the maintenance or the upkeep of those 
dams doesn't keep pace with the age. So it is mostly as a 
result of the aging process of the dam inventory in the 
Country.
    Mr. Kuhl. All right. Now, if more are becoming unsafe, 
shouldn't we be working to make them less unsafe? And if the 
answer is yes, then the question--actually, both of you--is why 
aren't we? Now, this bill actually puts a new mandate on the 
Corps, whereas, before, the position was that you may do 
inspections. Now, under this reauthorization, you are required 
to absolutely conduct an inspection. Is that kind of an impetus 
coming from a directive from the Congress to mandate 
inspections, which will then, for sure, point out unsafe dams, 
all of them across the Country? Is that going to necessitate an 
increased funding level?
    I know it is a multi question, but I would appreciate your 
insight. We want to be helpful, obviously. We want to eliminate 
any potential hazards that are here. And I guess I am looking 
to both of you because, in my short time here, I have noticed 
the appropriations going to the Homeland Security Department is 
increasing significantly over the last years, but I don't see 
that same kind of increase in appropriations for the Dam Safety 
Program increasing. Just looking for your insight. Not begging 
a fight, just looking for an insight.
    Mr. Maurstad. No, I think that certainly, again, as we work 
with the States--and their primary responsibility is the 
regulator of most of the dams across the Country--we want to do 
what we can to provide them with the necessary training, the 
necessary funds for research, inspections. The Mitigation 
Division is, of course, particularly interested in the 
emergency assistance planning aspect of what the States are 
doing. The data collection is an important part to provide 
everybody the relevant information to be able to make good 
decisions both at the private level, local level, and Federal 
level.
    So I think clearly we support the intent of what the Dam 
Safety Program is intended to accomplish. Certainly, as the 
civil engineers have pointed out and as testimony earlier, 
there is a great need out there, and the challenge will be to 
continue to come up with the resources to meet those needs.
    Mr. Stockton. Yes, sir, I think the Federal role is more of 
facilitation, coordination, collaboration, sharing of 
information, technical information, and developing consistency 
and measuring the size and magnitude of the program, assessing 
the dams, classifying them by hazard category so we all know 
what the state of the infrastructure is. I don't believe there 
is any provision in this legislation that mandates Corps of 
Engineers inspection or direction to do anything specifically 
for any group or category of dams.
    Mr. Kuhl. A follow-up question to both of you. Based on 
your oversight of this Dam Safety Program, do you have any 
thought as to what the outstanding financial need is for total 
repair of all the dams that are insufficient across the 
Country?
    Mr. Maurstad. The only number that I would have would be 
the number I think that has been provided by the Association of 
State Dam Safety Officials, and I am not sure--I know they are 
going to be on the next panel. I am not sure that I have that 
number right at my fingertips. I could certainly secure it for 
you for the record.
    Mr. Kuhl. Okay. Thank you. I have no further questions.
    I yield back, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Kuhl.
    I now recognize Mr. Michaud for questions.
    Mr. Michaud. Thank you very much, Mr. Chairman. I 
appreciate the line of questioning from my colleague from New 
York. That is the same concern that I have, and I heard it in 
your opening remarks, about a huge unmet need. And I was just 
wondering what that unmet need was, and I just heard your 
comments to my colleague from New York.
    I guess my concern is when you look at the huge unmet need 
and the fact that States are primarily responsible for the 
majority of the dams within their States, however, with the 
budgetary constraints at the State level for various reasons, 
what do you think the role of the Federal Government should be? 
I will use Maine for an example. We have one dam inspector for 
the whole State of Maine.
    There is a problem when you look at not only inspecting the 
dams, but also the enforcement. How do you address that 
enforcement? And then I would like you to comment on how do you 
address an issue where actually you have a Federal agency such 
as the U.S. Forest Service, who owns dams, who is in dispute 
with a State, in violation of State law for five years, and 
nothing has been done yet. How do you solve these problems and 
continue to move forward to make sure dam safety is a top 
priority for both your agencies?
    Mr. Maurstad. Well, I think clearly, as has been indicated, 
our role is to facilitate and coordinate amongst the dam safety 
community on how best to solve all of these problems. I think 
that with the resources that have been made available, I 
believe, for the most part--not in all parts--the States are 
trying to do as much as they can with not only their own 
resources, but with the resources that the Federal Government 
provides them. So the collaboration that occurs through the 
various interagency groups, data sharing, research, training 
opportunities, all of those lend itself to trying to address 
the problem.
    Now, the overriding issue is where and who is going to 
provide the necessary funding, and, of course, we will work 
with Congress on trying to develop an answer for that.
    Mr. Michaud. Do you think, when you look at engineers--and 
I am not sure what other States are doing. What is your opinion 
on, when you look at colleges and programs that universities 
might offer, some of the classes, do you think it is worthwhile 
looking at, whether that might be a program, actually the 
university systems might be able to do as far as having their 
engineers out there to help inspect or write emergency planning 
plans, or is that too premature at this time? And do you think 
that there should be some Federal oversight if that does occur, 
to help the States meet their needs?
    Mr. Maurstad. Well, I am not an engineer. I am not 
knowledgeable relative to what is provided in the engineering 
colleges around the Country, but I would just say in a very 
general sense the training that we try to coordinate with our 
dam safety technical workshops we have done both at the 
regional level, at the local level, the Association of Dam 
Safety Officials develop training across the Country, I think 
that we are working with the Corps of Engineers on a new web-
based training opportunity. So I think that the exploration on 
how to better train dam safety officials is certainly out 
there. We are willing to look at whatever opportunities can 
best facilitate the necessary objectives.
    Specific to engineering training, I might defer to Mr. 
Stockton relative as to whether there is a deficiency there or 
not, or whether there is something more than the Dam Safety 
Review Board could be doing with the engineering educational 
community to facilitate improvement.
    Mr. Stockton. Yes, sir. I think it is an excellent 
suggestion. I mean, it really gets down to resources. And if 
there is a lot of talent in the college and universities that 
can be used in an appropriate way, I think that is an 
appropriate application and would get people to focus and give 
it the visibility that the program really needs.
    Mr. Michaud. If I might, Mr. Chairman, just one last 
question.
    What role does the U.S. Army Corps of Engineers play with 
other Federal agencies? As I mentioned earlier, where we have a 
law in the State of Maine, the U.S. Forest Service has not met 
the obligations under that law. Do they contact the Corps of 
Engineers for assistance, or what role do you play when you are 
dealing with a State law versus another Federal agency as it 
relates to dams?
    Mr. Stockton. Yes, sir. Each Federal agency is responsible 
for regulation, monitoring, and operations and maintenance of 
their projects. We are members of the Interagency Committee on 
Dam Safety and the National Dam Safety Review Board. The 
Department of Agriculture also has members on both of those 
boards. But as far as any regulatory authority, no. We can 
provide technical assistance on a reimbursable basis.
    Mr. Michaud. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    I want to thank both of you gentlemen for being here today. 
We appreciate it. And I am certain we are going to be 
submitting some questions to you for more detailed answers. So, 
again, thank you for being here today, we appreciate it. And 
you are excused. Thank you.
    Mr. Stockton. Thank you, Mr. Chairman.
    Mr. Shuster. The Committee now calls our second panel 
today. If you folks want to make your way to the table.
    First off, I would like to thank each and every one of you 
for traveling here, a great distance some of you, for being 
here, taking the times out of your schedule. It is important 
that we hear from folks that are out there in the field, as 
they say, in the real world. So we appreciate your being here 
today.
    We are joined today by several panelists: Ms. Ruth Moore, 
who is the Deputy Commissioner of Natural Resources and Water 
Quality, a Division of New York's Environmental Conservation; 
Mr. Larry Roth, who is the Deputy Executive Director of the 
American Society of Civil Engineers; and Mr. Kenneth Smith, 
Assistant Director of Indiana's Department of Natural 
Resources, Division of Water, and President of the Association 
of State Dam Safety Officials; and, finally--Mrs. Kelly is not 
here--not to be confused as a relative of Mrs. Kelly's, Mr. 
David Kelly, who is a County Legislator from Duchess County, 
New York.
    Thank you all, again, for being here today. I am certain 
you are going to give us further insight to the issue that we 
have before us here today.
    So, with that, I recognize Mr. Kelly. You can start off 
your testimony.

 TESTIMONY OF DAVID P. KELLY, COUNTY LEGISLATOR, DISTRICT 23, 
DUTCHESS COUNTY, NEW YORK; RUTH A. MOORE, DEPUTY COMMISSIONER, 
      NATURAL RESOURCES AND WATER QUALITY, DEPARTMENT OF 
ENVIRONMENTAL CONSERVATION, NEW YORK STATE; LARRY ROTH, DEPUTY 
   EXECUTIVE DIRECTOR, AMERICAN SOCIETY OF CIVIL ENGINEERS; 
   KENNETH SMITH, PRESIDENT, ASSOCIATION OF STATE DAM SAFETY 
 OFFICIALS, ASSISTANT DIRECTOR, INDIANA DEPARTMENT OF NATURAL 
                  RESOURCES, DIVISION OF WATER

    Mr. Kelly. Thank you, Mr. Chairman. Chairman Shuster, 
Ranking Member Norton, distinguished members of the 
Subcommittee, my name is David Kelly. I am here today to 
connect you with a small community that is reaching out to take 
on the responsibility of maintaining, rebuilding, and 
ultimately taking ownership of a local hidden public threat, an 
earthen dam.
    Throughout these United States, we have hundreds of 
thousands of earthen structures holding back billions of cubic 
gallons of water. These dams were built for many reasons: 
community drinking water reservoirs, energy production, flood 
mitigation, recreation usage, amongst others. And while their 
benefits are well known, their dangers of their potential 
failures are overcoming local communities like mine in Duchess 
County and all across this Country.
    For the past eight years, Pawling residents have been 
working towards sustaining their quality of life by accepting 
the demanding responsibilities of ownership of a dam that was 
built in 1847. The Whaley Lake Dam was built by the owners of a 
hat and dye factory some seven municipalities downstream on the 
historic Hudson River. The waters that it holds were used to 
control the high and low levels of the stream which provided a 
flow to the factory to turn its waterwheel, its machines, its 
mills, and, in the early 1900s, a generator. Because of its age 
and its deteriorating condition, the dam, and its 1.2 billions 
of gallons that it holds back, poses a risk to our community.
    For eight years the homeowners and public officials have 
been working jointly on their efforts. Because the 159 year old 
dam has no owner of record, the property was taken back by the 
county for nonpayment of taxes. The New York State Department 
of Environmental Conservation, following a 1998 assessment of 
the dam's condition as unsound, has recently considered 
breaching the dam. State, county, and town officials, along 
with the homeowners, continue to work together to resolve this 
entire legal logistic nightmare.
    Concerns have continued to surface through discussions on 
how to maintain the current quality of life, maintain the value 
of their homes, maintain the value of the assessment of the 
entire local community--both the town and the county--maintain 
the recreation and tourism vitality, and reduce the 
environmental effects if this lake were to be drained.
    Thousands of privately-donated dollars and personal hours 
have been dedicated to this project to date. Design proposals 
have been drawn up, maps have been designed, public 
informational meetings have been held, and we asked for the 
assistance from our State agencies. The entire Pawling 
community is taking charge and trying to move forward.
    But they have only taken it nearly as far as they can do. 
Pawling and Duchess County need assistance to relieve the 
financial burden that will cause millions of dollars to merely 
repair and rebuild only portions of the original dam structure.
    That is where the Federal Government plays a crucial role. 
Local communities like the town of Pawling simply do not have 
the resources to pay the necessary improvements to rehabilitate 
the dams like this one at Whaley Lake. I hope that as Congress 
and this Subcommittee considers reauthorizing the Dam Safety 
Program, they will include a program to assist States and 
communities to repair and rehabilitate deficient dams.
    H.R. 1105, introduced by my Congresswoman, who was present 
here earlier, Sue Kelly, would provide $350 million over the 
next four years for dam repair and rehabilitation program. Such 
funds would go a long way in preventing disasters like the one 
we saw earlier in Hawaii.
    Chairman Shuster, Ranking Member Norton, this is a mere 
glimpse of one small community's struggle on an unsafe dam. As 
Congress continues to examine the Dam Safety Program, we must 
consider that maintenance must be performed on all the 
structures which are built. Communities will need to know that 
a program exists to allow the relief from the burden of taking 
ownership of a hazardous dam.
    Once again, I thank the Subcommittee for allowing me to 
testify today, and look forward to your questions.
    Mr. Shuster. Thank you, Mr. Kelly.
    Ms. Moore, you may proceed.
    Ms. Moore. Thank you and good afternoon. Chairman Shuster, 
Ranking Member Norton, and members of the Subcommittee, on 
behalf of Commissioner Denise Sheehan, I want to thank you for 
allowing the New York State Department of Environmental 
Conservation to testify today on timely and important 
congressional legislation to reauthorize the Federal Dam Safety 
Program. My name is Ruth Moore, and I serve as the Department's 
Deputy Commissioner for Natural Resources and Water Quality.
    The Department welcomes the Subcommittee's interest in dam 
safety and applauds Congressman Kuhl in particular for 
introducing H.R. 4981.
    Article 15 of New York State's environmental conservation 
law provides the statutory framework for many of the 
Department's water resource programs, including dam safety. The 
Department's dam safety program is designed to protect the 
public and safeguard property, and to ensure that natural 
resources are not adversely affected.
    The New York State legislature first recognized the need 
for the State to regulate dams in 1911, making the Department's 
dam safety programs one of the oldest in the Nation. The 
statute requires permits to construct or repair a dam; requires 
dam owners to operate and maintain dams in a safe condition; 
and gives the Department, among other things, authority to 
remove or repair a dam in order to safeguard life, property, or 
the natural resources of the State. These statutory 
requirements facilitate the Department's ability to implement 
the National Dam Safety Program in New York State, and 
amendments to the NDSP as proposed in 4981 would enhance these 
ongoing State and Federal efforts and cooperation.
    There are over 5500 dams in New York State, and while the 
safe operation of a dam is the responsibility of the dam owner, 
the Department's staff perform regular and periodic inspections 
of certain dams in addition to the dam owner's operational and 
inspection activities.
    The Department inspects the State's 384 high-hazard dams 
every two years, and 757 intermediate-hazard dams have 
historically been inspected every four years. We also perform 
unscheduled inspections of dams as needed. Dams under 
construction may be inspected more frequently, for example. Dam 
safety staff perform an average of 400 inspections each year 
and, with the new staff which Governor Pataki approved in the 
State's current fiscal year, our ability to inspect dams will 
be further enhanced.
    H.R. 4981 provides much needed assistance to New York 
State's efforts to effectively protect the health and safety of 
its citizens and natural resources through the safe management 
of dams. By requiring the Army Corps of Engineers to maintain 
and update information on the inventory of dams in the United 
States, the bill will help provide New Yorkers with the 
assurance they need that dams are maintained in a safe 
condition. Since the Corps' assessment of dams would be based 
on inspections completed by either a Federal agency or a State 
dam safety agency, this program would effectively complement 
the dam safety activities already underway in New York State.
    With Federal recognition of State responsibilities for dam 
safety and inspection comes the need for Federal funds as well 
to assist States like New York in carrying out those 
responsibilities. For that reason, the Department supports 
provisions which authorize adequate funds for the National Dam 
Safety Program, the National Dam Inventory, and for research, 
training, and staff; and we believe the Department is well 
positioned to qualify for assistance from the National Dam 
Safety Program under the enhanced requirements proposed in 
4981.
    In addition to the Department's support for congressional 
approval of H.R. 4981, I would like to emphasize the importance 
of enacting congressional legislation that assists programs 
already underway to repair and rehabilitate older dams whose 
failure could significantly harm the health and safety of our 
citizens. Such assistance can be found in H.R. 1105, introduced 
by Congresswoman Sue Kelly of New York.
    H.R. 1105 would establish a grant program in FEMA to aid 
States undertaking rehabilitation projects on deficient 
publicly owned dams. Authorized appropriations would amount to 
$50 million for fiscal year 2007, with $100 million per year 
authorized for 2008 through 2010. The authorization of these 
funds would bolster the Department's efforts to encourage 
public dam owners in New York State to rehabilitate and repair 
many older dams, and would help supplement the State's $15 
million dam safety grant program for municipalities authorized 
by Governor Pataki's 1996 Clean Water, Clean Air Bond Act.
    Your attention to this important issue is greatly 
appreciated. By work together, we can ensure the quality of New 
York's dams and, through that, the safety of its residents, 
their property and water supply, and the many natural and 
scenic resources which New York has to offer.
    Thank you, and I would be happy to answer questions.
    Mr. Shuster. Thank you very much, Ms. Moore.
    Mr. Roth, you are recognized.
    Mr. Roth. Mr. Chairman, members of the Subcommittee, good 
afternoon. My name is Larry Roth. I am the Deputy Executive 
Director of the American Society of Civil Engineers. I am a 
licensed professional engineer and a licensed geotechnical 
engineer in the State of California. Before joining ASCE's 
staff, I had 30 years experience in water resources 
engineering, including dams, levees, and canals.
    Let me start by thanking you for holding this hearing. As 
someone who has worked in this field for many years, I can say 
there are few infrastructure issues of greater importance to 
more Americans today than dam safety. So I am very pleased to 
appear here today to testify for ASCE in strong support of H.R. 
4981, the Dam Safety Act of 2006. We believe that Congress 
should pass this bill without delay in order to reauthorize the 
National Dam Safety Program.
    In addition, ASCE urges the Subcommittee to approve 
companion legislation H.R. 1105, the Dam Rehabilitation and 
Repair Act of 2005 This bill amends the National Dam Safety 
Program to provide critically needed funding for repairs to 
publicly owned dams across the United States. Like all manmade 
structures, dams deteriorate with age.
    Last year, ASCE issued the latest in a series of 
assessments of the Nation's infrastructure. Our 2005 Report 
Card for America's Infrastructure found that the number of 
unsafe dams in the United States rose by a stunning 33 percent 
between 1998 and 2005.
    Moreover, the Nation's dam safety officials estimate that 
it will cost more than $10 billion over the next 12 years to 
upgrade the physical condition of all critical, non-Federal 
dams, dams that pose a direct risk to human life should they 
fail.
    The problem of hazardous dams is potentially enormous. As 
the Congressional Research Service stated last September, 
unsafe dams represent a serious risk to public safety. The 
study said, while dam failures are infrequent, age, 
construction deficiencies, inadequate maintenance, and seismic 
or weather events contribute to the likelihood of failure. To 
reduce the risk, regular inspections are necessary to identify 
deficiencies, and then corrective action must be taken.
    Although catastrophic failures are rare, the States 
reported 1,090 dam safety incidents, including 125 failures, 
between 1999 and 2004. The number of high-hazard dams, dams 
whose failure would cause loss of life, is increasing 
dramatically. By 2005, the number of high-hazard potential dams 
totaled more than 10,000 across the Nation.
    Even more alarming, States currently report that more than 
3500 unsafe dams have deficiencies that leave them more 
susceptible to failure. Many States have large numbers of 
unsafe dams, including Pennsylvania with 325; New Jersey with 
193, and Ohio with 825. The actual number is potentially much 
higher since some State agencies do not report statistics on 
unsafe dams.
    Congress has been committed to dam safety for more than 30 
years. It enacted the National Dam Inspection Act of 1972, 
which created the National Inventory of Dams, or the NID. The 
NID, which was last updated in February 2005, now lists more 
than 79,000 U.S. dams of varying purposes, ownership, and 
condition. More than half are privately owned; fewer than 5 
percent are owned by the Federal Government.
    H.R. 4981, a bipartisan bill, ensures that corrective 
action will be taken in a timely manner. The bill is quite 
simple. Let me summarize its chief provisions briefly.
    The bill would require the Secretary of the Army, acting 
through the Chief of Engineers, to maintain and update 
information on the inventory of dams in the United States, 
including an assessment of each dam based on inspections 
completed by either a Federal agency or a State dam safety 
agency. It would require that the strategic plan for dam safety 
prepared by the Director of Federal Emergency Management 
establish performance measures, in addition to goals, 
priorities, and target dates, towards effectively administering 
the Act to improve dam safety.
    It would further require that States, to be eligible for 
assistance under the Act: one, have to perform inspections at 
least every five years of those dams and reservoirs that pose a 
significant threat to human life and property; two, create a 
process for more detailed and frequent safety inspections; and, 
three, develop the authority to issue notices to require owners 
of dams to install and monitor instrumentation.
    Finally, H.R. 4981 reauthorizes very modest appropriations 
of the National Dam Safety Program, the National Dam Inventory, 
and for research, training, and staff.
    Thank you, Mr. Chairman. That concludes my statement. I 
would be very pleased to take any questions you may have.
    Mr. Shuster. Thank you, Mr .Roth.
    And now, Mr. Smith, please proceed with your testimony.
    Mr. Smith. Thank you. Good afternoon. My name is Kenneth 
Smith. I am a civil engineer and the Assistant Director of the 
Division of Water in the Indiana Department of Natural 
Resources. I am responsible for the State's dam safety program. 
I am also the President of a national professional society 
known as ASDSO, the Association of State Dam Safety Officials.
    Chairman Shuster, thank you very much for having this 
hearing.
    Congressman Kuhl, we really appreciate your efforts for 
introducing the reauthorization of the Dam Safety Program.
    And Congresswoman Kelly, I really deeply appreciate your 
introduction of the Dam Rehabilitation Act.
    We are pleased to be here today to offer this testimony 
regarding the condition of the Nation's dams, the critical role 
of the Federal Government in dam safety and security at dams.
    The Association, I assume you know, is a nonprofit 
organization with about 2300 members. This includes State, 
Federal, local, and private sector individuals. We are 
dedicated to improving dam safety through research, education, 
and communication. Our goal simply is to reduce the loss of 
lives and damage to businesses and property by encouraging wise 
dam safety practices.
    Individual States' dam safety programs regulate about 95 
percent of the 79,000 dams in the United States. The States and 
their programs certainly look to Congress and the Federal 
Government for their continuing leadership by example, with 
federally-owned and regulated dams and support of the national 
dam safety cause.
    There have been many dramatic incidents of dam failures 
that we all recognize. In 1976, the federally-owned Teton Dam 
failed, killing 14 people and causing over $1 billion in 
damages. Also in the late 1970s, in Georgia, a much smaller 
privately owned dam, Kelly Barnes, failed in Toccoa Falls. 
These, compared to or attached to the recent failures in 
Hawaii, killing seven people, failures in Missouri, New York, 
and a near-failure in Massachusetts last year, have certainly 
brought again to focus the vulnerability and the potential 
consequences of our deteriorating, unsafe deficient dams.
    Downstream development continues below many dams, and these 
dams continue to age. They demand greater attention and 
investment to assure their safety. Failures like these that we 
have seen are a reminder of the obligation to assure that all 
dams are properly constructed, operated, and maintained.
    As has been mentioned, the Dam Safety Program today is 
administered through FEMA and has been for the last 10 years. 
This program has encouraged the inspection of dams and provided 
very valuable assistance to the State dam safety programs There 
has been critical training for State engineers; there has been 
research activities that have occurred. Additionally, the 
program directs the Army Corps of Engineers to maintain a 
national tracking system that catalogs dams in the United 
States. This national program is very vital to assuring safety 
of the dams and must continue.
    Dam safety, however, requires more than what the national 
program currently provides. Inspections and education alone and 
tracking systems will not substantially improve dam safety when 
we have such an aging infrastructure. The reconstruction 
funding is needed both for public-and privately-owned dams. The 
H.R. 1105 that is currently proposed is a great beginning to 
address publicly-owned dams. Unsafe privately-owned dams, 
though, can still cause people to lose their lives. Finding a 
financial mechanism for private-owned dams remains an unsolved 
challenge. We must not forget that even privately-owned dams 
present great public safety concerns.
    Thank you again for the time you have given this topic. The 
Association requests in the strongest terms possible you 
recognize the benefits of dams and the unacceptable 
consequences of dam failures, and the role Congress needs to 
play by passing H.R. 4981 and H.R. 1105, and that you demand 
aggressive management of the National Dam Safety Program to 
achieve the results the people who live below our dams expect.
    Thank you again for this opportunity, and I would be 
pleased to answer any questions.
    Mr. Shuster. Thank you very much, Mr. Smith.
    I want to thank all of you for staying under the five 
minute time allocation. Everybody yielded back with some time, 
which, in Congress, doesn't happen too frequently.
    I know Mrs. Kelly has been involved in a markup, so I am 
going to yield to her first for questions, if she has any.
    Mrs. Kelly of New York. I really appreciate that, Mr. 
Chairman. Yes, we are in a markup, which is necessitating my 
running back and forth.
    I want to know if I can do a bit of business here and, with 
unanimous consent, insert into the record a letter from the 
American Rivers that concerns this hearing.
    Mr. Shuster. Without objection, so ordered.
    Mrs. Kelly of New York. Thank you.
    My first question is for Mr. Kelly. As you know, the 
legislation that I have would provide funding for repair and 
rehabilitation of publicly-owned dams. I wonder if you could 
describe for the Subcommittee the great lengths that you and 
the residents of the Town of Pawling have gone to try to bring 
the Whaley Lake Dam into public control.
    Mr. Kelly. Yes, thank you, Mrs. Kelly. The Whaley Lake Dam 
currently is held by Duchess County and the in rem proceedings 
mean that there is basically no owner of record. But the owner 
of record was a corporation out of New York City, based out of 
New York City.
    What would happen under these proceedings is that the 
county would take title or ownership of the property for a mere 
second, as the county attorney indicated to us in earlier 
conversations. At that point, they would transfer ownership 
over to the Town of Pawling. The Town of Pawling would then, 
being a public entity, would transfer it over to a dam 
district, that is, potentially being voted on by the members of 
the district around the lake. So it would end up going from 
private ownership in the in rem proceedings into a public 
ownership to the State.
    Mrs. Kelly of New York. And you are working on this, Mr. 
Kelly?
    Mr. Kelly. Yes, we are. We have been currently working on 
this and trying to work out the logistic nightmare of it for 
eight years of how it actually has to happen. We have been 
discussing it with the State attorney general's office, with 
the comptroller's office, with the governor's office. Every 
corner there seems to be a different avenue on how it has to 
happen and the formality of the public notification of the 
owners and of the last known owners and any of their heirs. It 
has been a--the nightmare is very--this is an understatement, 
but it has been a lengthy process and there is a rock that 
comes up at every corner.
    Mrs. Kelly of New York. It sounds to me as though the 
homeowners around the lake have incurred some considerable cost 
in trying to get this resolved. Is that true?
    Mr. Kelly. Yes, it is. The homeowners currently have put up 
thousands of dollars towards a legal fund that they have 
formed, a dam committee themselves, which is sanctioned by the 
Town of Pawling. They have put up all the money to secure 
counsel for themselves, and they have also put in thousands of 
hours of deed research to find out the owners of the parcels 
surrounding the lake to see who has lake rights into the 
parcels and to see actually the title searches into the 
previous owners and how far they have gone back. We have been 
fortunate that we do have a title--a person that owns a title 
search company that has authorized his business. As I said, 
thousands of hours have gone into this to try to find the 
owners.
    Mrs. Kelly of New York. I hope this all works out.
    I want to say that I am very impressed with the testimony 
of Ms. Moore, Mr. Roth, and Mr. Smith. You know your stuff, and 
it is good to have you here to be able to testify with such 
good testimony that you have brought to us today. So I thank 
all four of you for your insight into the need for this piece 
of legislation.
    Mr. Chairman, I yield back the balance of my time and 
appreciate your sensitivity to my being in the markup.
    Mr. Shuster. Thank you for joining us today. We appreciate 
your being here.
    Now I recognize Mr. Kuhl for questions.
    Mr. Kuhl. Thank you, Mr. Chairman. I have just a couple.
    I am interested because, obviously, I have got my 
colleague, Mrs. Kelly, here, and you all have heard the 
testimony of the prior panel and are familiar with the two 
bills that are being introduced. Is there something we are 
missing that should be added that we haven't picked up on? I 
mean, you people are the experts in the field who are dealing 
with this every day and it is part of your livelihood. We are 
the people who are trying to gather information and make the 
program even better.
    Is there something we are missing that should be added? For 
any of you to offer up anything that you may have. We still 
have time to tinker with it a little bit before it actually 
gets put on the floor. Mr. Kelly?
    Mr. Kelly. Yes, Mr. Congressman. The gentleman from FEMA 
discussed the--if I remember right, how the monies would flow 
back to the States and how that has been handled in the past. 
We have been fortunate that Congresswoman Kelly has gained some 
conversation back and forth from FEMA, but one issue that 
seemed to keep coming up in conversation that they were dealing 
with privately owned dams. I think the language definitely 
needs to have conversation both ways about publicly and 
privately owned dams. There shouldn't have to be a stigma of 
who owns a dam or what happens or any financial burden.
    In our case, this dam was there before any of us really 
gained residency into the district or around the lake, and it 
served another purpose. As times changed and as the influx of 
people, actually, after 9/11, have moved up into Duchess 
County, or from New York City up to northern areas, we have 
seen a growth in area.
    So I think in dealing with private or public ownership, I 
think we just need to have straight language that if there is 
imminent danger, as in our case, the New York State DEC raises 
a level of high-hazard in our case, that we need to just look 
at those dams and take care of them on a level of high-hazard, 
and not worry about who is private or publicly owned, because 
there is a hazard downstream to, in this case, seven 
municipalities, and the water would actually flow--the first 
flow from our water, if there was a breakage of the dam, it 
would take out actually a federally-owned, newly repaired dam, 
the United Nuclear Dam.
    Mr. Kuhl. Okay.
    Any of the rest of you want to add? Yes, sir, Mr. Smith.
    Mr. Smith. Thank you. The bills are very good the way they 
are, and particularly when I think of the rehabilitation bill. 
It is so good to know that we are at this first step and this 
first start. There is one issue, though, that I will bring up 
that has not really been mentioned so far, and that is the 
concept of a thing called emergency action plans.
    With any dam, no matter how good it is engineered, how good 
it has been maintained, sometimes situations occur where there 
are problems at the dam, and emergency action plans are those 
items that are then used by the owner and the local officials 
as they try to respond to an emergency, make sure they know who 
they need to notify, and who they need to be getting out of 
harm's way.
    The reason I bring this up is that across the Nation about 
50 percent--I think it is 60 percent of the States--have a 
requirement, a State requirement that emergency action plans be 
in place for all high-hazard dams. My State in particular, 
Indiana, does not have such a requirement, and many States 
don't. I wonder if we were going to add anything to the bill, 
the one thing I think of adding to the rehabilitation bill 
might be a requirement that if one of these grants is given to 
a particular dam, that regardless of whether or not there is a 
State requirement for an emergency action plan, as part of 
receiving that grant, the owner of that dam should probably be 
required to have created and practiced and continued to update 
an emergency action plan.
    Thank you.
    Mr. Kuhl. Okay.
    Mr. Roth or Ms. Moore?
    Mr. Roth. Thank you, Mr. Kuhl. The American Society of 
Civil Engineers does strongly support both H.R. 4981 and 1105. 
But I would point to our own report card, which you cited, sir, 
thank you, and to our colleagues from the Association of States 
Dam Safety Officials, that the total investment to bring our 
dams into compliance and to remove obsolete dams probably tops 
$30 billion. H.R. 1105 provides a modest $350 million over four 
years to address these dam safety issues. I guess if there is 
anything on my wish list, it is probably not very popular, but 
certainly more money would always be nice.
    Mr. Kuhl. Well, we are used to that request.
    If I might just follow up on that, Mr. Chairman, in the 
transportation side of the Transportation Committee, we are 
always seeing these analyses that talk about how there are so 
many deficient bridges and roads and things like that, and how 
much money it takes to maintain that level of deficiency, 
knowingly fully that there is an aging process that goes on, 
but to maintain that certain level.
    Do you have any idea, based on your overall figure of, say, 
$30 billion to totally repair, what it would be to maintain 
this level of efficiency on an annualized basis for 
expenditures?
    Mr. Roth. I am not certain I could give you a precise 
answer to that question. However, it is not just a matter of 
maintain, but actually reversing some of the problems that we 
see with our most unsafe dams. And I believe the cost estimate, 
which is sort of a minimum price tag, would be $10 billion over 
a 12 year period.
    Unfortunately, our report card and that number talks about 
a very large chunk of money. I believe our report card calls 
for $1.6 trillion over five years. But only about half of that 
is new money. And if you divided it out over five years, it is 
a much more manageable size number, one that we could more 
easily get our arms around.
    It seems that $10 billion over 12 years might be a very 
reasonable investment in our Nation to protect public health, 
safety, and welfare from unsafe dams. We only have to look at 
the levee situation in New Orleans to realize how large and how 
tremendous both a socialist society impact, as well as a 
property damage impact that a failure might occur. And let's 
not kid ourselves, we call those levees in New Orleans, but 
they are really dams. New Orleans, as a city, is below sea 
level. I think the level in Lake Pontchartrain is about plus 6 
or so. So those are dams, and they deserve to be treated in the 
same degree of seriousness with which we approach all of our 
Nation's dams.
    Mr. Kuhl. Thank you, Mr. Roth.
    And thank you, Mr. Chairman, for allowing me to extend my 
time.
    Mr. Shuster. Sure. Thank you.
    My question is first concerning the H.R. 1105, which Mr. 
Roth said money and Mr. Kuhl said we are used to that request 
up here. But as Mrs. Kelly's bill authorizes, tries to 
authorize $350 million in funding to help repair dams, would 
the four of you, any of you, care to comment on this? As we try 
to develop the argument why should the Federal Government pay 
with assisted funding State and local dams, what argument 
should we use? Give us your best case. When we make the 
argument, what should we put forward, coming from you folks 
that are out there in States and localities?
    Go ahead, Mr. Smith, you can start.
    Mr. Smith. I think the question really was why is there a 
Federal role, why does there need to be leadership.
    Mr. Shuster. Right.
    Mr. Smith. Several thoughts kind of jumped to my mind on 
that one, the first one just being generally the fact that the 
Federal Government itself is an owner and regulator of dams, 
and in that position it has tried very much over the last few 
years to lead by example, and I think that is a very 
appropriate role that the Federal Government should do, do the 
right thing with their own dams, the ones they regulate, and 
then sort of set the course for communities around the Country 
and the States, as well as private owners. Someone has got to 
take that leadership role. If it is not the Federal Government 
with their own, I don't know who else it would be. And somehow 
I don't see there being able to be the movement in a particular 
focused direction if it weren't for the Government at least 
standing out there and pointing the way.
    The second issue really is the dam failures and their 
potential flood innundation areas really do not respect State 
boundaries. I think it is very much an issue that, because of 
that, requires some Federal attention.
    And, really, the third response to that--and I think the 
most important part why they should be involved--is really that 
when there is a disaster, the National Flood Insurance Program 
and the President's Disaster Relief Fund are typically the 
source that repair and recovery costs often come from for this 
downstream flooded areas that occur. When you have to get into 
the repair and cost of these, the cost of even a single dam 
failure far exceeds the kind of numbers that we are talking 
about for preventative rehabilitation to a dam to begin with, 
and I think they even typically exceed the kind of numbers we 
are talking about with the programs even now for the 
rehabilitation program.
    Mr. Shuster. Would your organization have the names of 
areas in the Country where a dam is in one State and, if it 
failed or if it is a high-hazard dam, would--for instance, 
Pennsylvania, if it failed, it would flood people in Maryland? 
Because that is information that would be helpful. Can you get 
those? Because I, quite frankly, don't know. In my own State, I 
think that the Youghiogheny Dam in Western Pennsylvania, if it 
flooded, breached, broke, it probably would do some damage to 
West Virginia or Maryland. So that to have those kinds of facts 
would be interesting.
    Mr. Smith. When I think about the database that is out 
there with the Corps of Engineers, the database currently that 
is there doesn't capture that kind of a question or response. 
Determining which dams those are would not be a task we could 
do real easily, but, sir, if it is what you would like, we 
would certainly try to get that answer. We can work with our 
States to try to get a list put together.
    Mr. Shuster. Because trying to authorize that sum of money, 
it is going to have to be a compelling argument, and you make 
one there, when you cross State lines. And through the commerce 
clause would be where the Federal Government could step up and 
say, well, because it is going to cause damage across State 
lines, maybe the Federal Government should play a stronger role 
than it does.
    Mr. Roth, do you care to comment?
    Mr. Roth. I think I agree completely with Mr. Smith's 
comments. Mr. Shuster, I spent most of my career as a 
practicing engineer in the State of California, and in 1917 the 
St. Francis Dam failed in Southern California, killing a number 
of people and causing a lot of property damage. The leadership 
of that State at that time said this will not happen again, and 
California has adopted a very aggressive dam safety program.
    And perhaps along with increased Federal funding there 
needs to be increased police action, if you will, to bring 
owners of dams such as the one that Mr. Kelly has addressed, to 
the table and have them take care of their responsibilities.
    Mr. Shuster. Ms. Moore, do you care to comment?
    Ms. Moore. I think many panelists have said today that not 
only do we need Federal assistance in terms of money, but we 
appreciate the Federal expertise, especially in times of 
crisis. And in New York we work very cooperatively with the 
Corps and with FEMA. In particular, we have had some 
devastating floods last month in New York, and both the Corps 
and FEMA are helping us get back on our feet. In terms of our 
dams, over 800 dams were in the flood-affected areas, and FEMA 
and the Corps are helping us to go back and inspect and look at 
those dams to make sure that they are still of good integrity.
    Mr. Shuster. Thank you.
    Mr. Kelly, do you care to comment?
    Mr. Kelly. Yes, thank you, Mr. Chairman. As the previous 
panelists did say, the support of knowledge and technology is 
what the Federal Government should be here to help the citizens 
of the United States about. But there are also areas around 
ours that the Department of Interior, with the Appalachian 
Trail crosses right in back of our dam, so if that was to 
break, we would lose a large section of the Appalachian Trail, 
and there is a lot of commerce there.
    Mr. Shuster. All right, thank you. One other question, and 
I don't know who may be familiar with this program, but the 
Department of Agriculture Small Watershed Dam Assistance 
Program, how does that compare to H.R. 1105, the rehabilitation 
bill, Mrs. Kelly's bill? Are you familiar with it at all? I 
know the one thing it doesn't compare to is H.R. 1105 is a lot 
larger sum of money. But do you have any idea, have you worked 
with that program at all in the Department of Agriculture?
    [No response.]
    Mr. Shuster. None of you have.
    Mr. Kelly, you first?
    Mr. Kelly. Mr. Chairman, Congresswoman Kelly, when we 
originally contacted her back in 1998, was one of the first 
areas we looked at, because there was some coordination between 
them and also the Department of Interior. But the funding 
mechanism, there needed to be something in the Water Resources 
Act, if I remember right, back into there, and it was just a 
time factor of having it passed by both houses.
    Mr. Shuster. I am sorry, I didn't quite get all that that 
you said.
    Mr. Kelly. If I remember right, back from the time in 1998, 
there was an incident where we needed to have the bill pass in 
the Water Resources Act.
    Mr. Shuster. Okay.
    All right, Mr. Smith?
    Mr. Smith. I apologize, I don't think I am as well versed 
on that one as I should be. But the Public Law 566 program--
which is I think what you are kind of referring back to--that 
had built through the NRCS had built many dams over the years 
in the past, they have kind of gotten out of the practice of 
dam building over the years, but I am familiar that there has 
recently been attempts through them to have legislation and 
funding to go back to some of those dams that are now in place 
to do upgrades that were out there and some repairs that are 
needed.
    I know that it is out there. I know that a small amount of 
money has gone towards that, but I think we are still looking 
at a couple of pieces of the same puzzle, really, with these 
public dams out there and the private ones that are there. That 
effort kind of goes towards some of the same problem, but still 
it is towards a limited number of the dams, the ones that they 
built. If there is something more specific about that program, 
a question that you would have that we can get an answer for, I 
would be happy to try.
    Mr. Shuster. No, I just wondered if you had any experience 
with it. Just a general question.
    Thank you very much.
    Finally, Ms. Norton. You are the last questioner, so 
proceed.
    Ms. Norton. I just have a couple of questions. Maybe this 
is a question I should ask Mr. Kuhl. This is called the Dam 
Safety Act, and I understand it was the Dam Safety and Security 
Act. This is only a title, but given the all-hazards approach 
and given the discussion here of security, I wondered if 
security was left out or taken out for a reason.
    Mr. Shuster. I don't know. It is the same program. Just 
shortened the title, trying to economize on our words around 
here.
    Ms. Norton. You know, I hate to say that language is 
everything, but Congress gives greater attention to security 
these days than to safety, and it is not a major point, and I 
don't mean to say it is.
    I do have a question. I am confused as between the private 
and the publicly-owned. Would somebody--when it is a privately-
owned dam, what does somebody get out of owning a dam? Is there 
some revenue that the privately-owned dam can count on, which 
means that they then obviously would protect their investment 
by repair and what have you?
    Yes, please, Mr. Smith.
    Mr. Smith. There are many privately-owned dams, and the 
owners--sometimes it is just an individual that has the 
property and has the dam on it. It may be there serving no 
purpose other than recreation for them at this point. Quite 
often that seems to be the purpose; they don't seem to have a 
revenue stream or anything to come to the aid of that dam, and 
those people we do have great difficulty with when they start 
looking at the rehabilitation costs of the structure. It can be 
very expensive to rehab a dam, and they are very much a 
concern.
    Now, some private-owned dams are held by like a homeowners 
association or a lake association of some people that are 
living around it. Those folks even there don't really have a 
revenue stream of a way to pay for their dams. They may have an 
association dues--
    Ms. Norton. What was the incentive for a private 
entrepreneur to build a dam in the first place?
    Mr. Smith. Many times to take a piece of land and increase 
its value by having waterfront property to sell to people.
    Ms. Norton. In which case they would have a vested 
interest.
    Mr. Smith. Yes, because they have the homes around them.
    Ms. Norton. Yes. Because I would be very concerned about 
dams which now become important not only for public safety, but 
for security, being in the hands of private parties who don't 
have a revenue stream, don't get public funding of any kind, 
and, yet, could have a dam that causes a disaster. You know, 
once there is a disaster of any kind, I don't care of it is a 
natural disaster or a security disaster, it is our problem. It 
is FEMA that is going to end up having to deal with it. So at 
some point I would like to know more about those dams.
    For publicly-owned dams, what percentage of these dams are 
publicly-owned, approximately?
    Mr. Smith. Approximately 60 percent of the dams in the 
Nation are privately owned. About 5 percent of the dams are 
regulated or owned by the Federal Government. The public-owned, 
off the top of my head, ball park, is probably about 25 to 35 
percent of the dams.
    Ms. Norton. Those would be State-owned dams, for the most 
part?
    Mr. Smith. They could be State or community or a county, a 
locality. In my State it could include conservancy district-
owned dams. I know in Ohio, next door, they have the same 
procedure. One of the things we try to encourage some private 
owners, like a homeowners association group, is to form a thing 
called a conservancy district. Conservancy districts are little 
local units of government that can then have some taxing 
authority, if they have much of a tax base, in order to try to 
raise some revenues for their structures.
    Ms. Norton. Well, I know it is a hard time. We will be 
asking the Federal Government for funds. The Federal Government 
does fund, to some extent, most infrastructure, to one extent 
or another. Of course, it does not fund--that is what the new 
act would face up to. All I can say is good luck.
    This act, of course, does not authorize that. I very much 
support this new bill. I hate to say it, but to get funding, 
whole new set of bills funding what we have not funded before, 
I hate to say it, but I know what it will take. It will take 
something happening. When something happens to one of these 
dams and it was because it wasn't repaired and it was years 
old, and, yes, the State had been looking at it for a long 
time, and yet the State obviously has many, many priorities and 
has got to act on the priorities that the public is screaming 
about, at that point we will get some kind of bill that is for 
the repair at least of those dams which are in critical need.
    I salute your work. Thank you very much for your testimony.
    Mr. Shuster. Thank you, Ms. Norton.
    Mr. Kuhl, you had another question?
    Mr. Kuhl. Yes. I just wanted to follow up.
    Mr. Kelly raised an issue about the timeliness of the 
activity that you have gone through, how long of a process it 
has been and what you have had to do relative to claiming 
ownership. How many of the dams across the Country really do we 
have private owners who really don't want to take ownership of 
the dams? Any estimate?
    Mr. Smith. I guess that one is to me, since I work with the 
owners a lot. Boy, an estimate. That one is kind of hard, but 
as many of the owners that we deal with, just so many of them, 
they barely even realize it is their responsibility. They have 
seen somebody out there inspecting, whether it is a government 
official or the Corps somewhere along the way. Their favorite 
thing seems to be to assume that someone else is responsible 
for it and will take care of everything. It is a great 
challenge that we face all the time, trying to convince owners 
of their responsibilities with their dams. I would hate to put 
a percentage on it, but, sir, it is pretty high.
    Mr. Kuhl. Okay. And I don't know whether Ms. Moore can help 
me out here. I am just trying to think about, okay, if an owner 
really doesn't--kind of give you a problem like Mr. Kelly has--
if an owner really doesn't want to follow through--say it is 
owned by a company that was producing energy for what purpose, 
and all of a sudden they have gone bankrupt, okay, and now 
there is no owner.
    And so Mr. Kelly now starts the only process he knows how, 
and that is to get the county government to take title to the 
property. What happens if the dam fails in the middle of this 
process? Now you have some subsequent owners like the bankrupt, 
where there is no recourse, and you have this damage that is 
done as a result of the failed dam. If the county is taking 
title, they are, all of a sudden, now assume responsibility and 
the result to the people who are there under it. Has that been 
a problem anywhere, as far as dam transferrals, to get these 
kinds of things taken care of?
    Mr. Smith. As far as dam transferral, and even just general 
awareness--you know, people buy property and aren't even aware 
of what they are buying, or they buy property downstream of a 
dam and are really unaware of it. There is a lack of awareness 
out there. As much as we have tried to educate the public and 
get information out, people are really unaware of what they are 
even getting themselves into.
    As far as ownership, it is very much an issue. Somebody 
else started a dam, get in trouble, declare bankruptcy, and 
then you have got a dam sitting there. I can think of one not 
that far from our State capital in that county to the south 
where that is the problem I am dealing with right now. The 
owner has gone bankrupt and he has left a bad dam in place, and 
trying to work through that whole process of who is ultimately 
responsible. Unfortunately, I think that often will wind up 
falling back to the State to deal with it.
    About two years ago I finally finished dealing with one 
such dam that had no owner that we could find on record at all. 
It was in very, very bad shape. It took us over 10 years of 
working through the courts and with the officials to finally 
get to the point--and also through our own people to try to 
find the money--to finally decommission this dam and take it 
out of service in order to reduce the hazard that was there. It 
was a very long process.
    And as I have talked to most of the States around the 
Nation, it is that funding for dam removal, for those abandoned 
or unwanted dams, it is something that is also needed out 
there. We all struggle with trying to come up with the money. 
This dam cost the State of Indiana over a quarter of a million 
dollars to take out and, like I said, staff's efforts over a 10 
year period to try to do it. So it is very much a problem out 
there. When the people see what it costs to actually 
rehabilitate a dam, these private owners do tend to try to run 
away from them.
    Mr. Kuhl. I am just wondering, Mr. Chairman, without going 
further on this, if this is not an issue that maybe the 
Subcommittee should be looking at relative to if there is an 
unawareness of filing of the inspection reports to alert to 
where there are dams and what the quality of them is on real 
estate things, and then a follow-up process for transfer that 
might prohibit actually a transfer to a willing buyer. So it is 
just an issue I think maybe potentially needs a solution.
    Mr. Shuster. I think that is an excellent point. I was 
surprised when they said 60 percent of the dams in the Country 
are privately held, and it is probably something we ought to 
take a look into. So I appreciate your bringing that point 
forward.
    You said 60 percent of the dams. I am trying to figure in 
my mind what does a private dam look like. It doesn't probably 
look like Hoover Dam. I know my father, who was a great 
champion of transportation and infrastructure in this Country, 
built a dam in a creek, but thanks goodness for all of us it is 
only a little more than a big mud puddle. So what do we call a 
private dam? Is it my father's mud puddle could be a private 
dam versus something much, much larger?
    Mr. Smith. The number that is out there of the number of 
dams in the Country of 79,000 is based on a certain set of 
criteria. I won't remember them all perfectly, but the Federal 
definition of what even constitutes a dam large enough to be 
regulated starts with something like a size that is over 25 
feet high and has I think the number is 50 acre feet of water 
that is behind it.
    Mr. Shuster. Fifty what?
    Mr. Smith. Acre feet of water. So, you know--
    Mr. Shuster. Surface of 50 acres?
    Mr. Smith. No, that would be volume of water. So 50 acre 
feet would be one foot deep over a 50 surface area, 50 acre 
surface area.
    Mr. Shuster. Okay.
    Mr. Smith. Or 10 feet deep over the whole thing and 5 
surface acres. So there is a size to theses number of dams. 
There is a lot more probably smaller structures that might be 
the kind of thing that you were saying your father built, that 
aren't really included in it.
    What does a dam typically look like that I find is in 
private ownership? I will go out and I will find something that 
is anywhere from 20 to 40 feet tall, an earthen structure, 400 
to 700 feet long across a valley, with a concrete spillway in 
it and a lake behind it that may have a surface area of 10 
acres or more of water behind it in an individual's ownership. 
And, sadly, these people often want to maximize the size of 
that pool behind it, so they will stick the dam right on their 
downstream property limit.
    Mr. Shuster. Right on their what?
    Mr. Smith. Right on their downstream property limit, you 
know, in order to have as big a lake as possible. And so they 
will wind up not owning and controlling the area immediately 
below the toe of their dam. The areas that they are going to 
impact the most they don't control, and that is why these 
things so often wind up high-hazard structures.
    Mr. Shuster. Right. And that is a great concern. You say 
that a lot of them don't have any kind of revenue stream to do 
the maintenance, and I think that is your concern, Mr. Kuhl and 
Mrs. Kelly. That is really something that is a great concern.
    Well, thank you all very much.
    Mr. Kuhl, do you have anything else? Okay.
    Thank you again, all of you, for being here. We appreciate 
your being here, helping to educate us as we move forward on 
Mr. Kuhl's bill and hopefully Mrs. Kelly's bill.
    I would ask unanimous consent to have the statements of the 
Democratic Ranking Member of the full Committee, Mr. 
Oberstar's, and Congresswoman Julia Carson's statements 
included in the record.
    I would also ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and unanimous consent that during such time as 
the record remains open, additional comments offered by 
individuals or groups may be included in the record of today's 
hearing. Without objection, so ordered.
    Once again, thank you all very, very much for being here 
today.
    And, with that, the Committee stands in adjournment.
    [Whereupon, at 3:47 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 30663.001
    
    [GRAPHIC] [TIFF OMITTED] 30663.002
    
    [GRAPHIC] [TIFF OMITTED] 30663.003
    
    [GRAPHIC] [TIFF OMITTED] 30663.004
    
    [GRAPHIC] [TIFF OMITTED] 30663.005
    
    [GRAPHIC] [TIFF OMITTED] 30663.006
    
    [GRAPHIC] [TIFF OMITTED] 30663.007
    
    [GRAPHIC] [TIFF OMITTED] 30663.008
    
    [GRAPHIC] [TIFF OMITTED] 30663.009
    
    [GRAPHIC] [TIFF OMITTED] 30663.010
    
    [GRAPHIC] [TIFF OMITTED] 30663.011
    
    [GRAPHIC] [TIFF OMITTED] 30663.012
    
    [GRAPHIC] [TIFF OMITTED] 30663.013
    
    [GRAPHIC] [TIFF OMITTED] 30663.014
    
    [GRAPHIC] [TIFF OMITTED] 30663.015
    
    [GRAPHIC] [TIFF OMITTED] 30663.016
    
    [GRAPHIC] [TIFF OMITTED] 30663.017
    
    [GRAPHIC] [TIFF OMITTED] 30663.018
    
    [GRAPHIC] [TIFF OMITTED] 30663.019
    
    [GRAPHIC] [TIFF OMITTED] 30663.020
    
    [GRAPHIC] [TIFF OMITTED] 30663.021
    
    [GRAPHIC] [TIFF OMITTED] 30663.022
    
    [GRAPHIC] [TIFF OMITTED] 30663.023
    
    [GRAPHIC] [TIFF OMITTED] 30663.024
    
    [GRAPHIC] [TIFF OMITTED] 30663.025
    
    [GRAPHIC] [TIFF OMITTED] 30663.026
    
    [GRAPHIC] [TIFF OMITTED] 30663.027
    
    [GRAPHIC] [TIFF OMITTED] 30663.028
    
    [GRAPHIC] [TIFF OMITTED] 30663.029
    
    [GRAPHIC] [TIFF OMITTED] 30663.030
    
    [GRAPHIC] [TIFF OMITTED] 30663.031
    
    [GRAPHIC] [TIFF OMITTED] 30663.032
    
    [GRAPHIC] [TIFF OMITTED] 30663.033
    
    [GRAPHIC] [TIFF OMITTED] 30663.034
    
    [GRAPHIC] [TIFF OMITTED] 30663.035
    
    [GRAPHIC] [TIFF OMITTED] 30663.036
    
    [GRAPHIC] [TIFF OMITTED] 30663.037
    
    [GRAPHIC] [TIFF OMITTED] 30663.038
    
    [GRAPHIC] [TIFF OMITTED] 30663.039
    
    [GRAPHIC] [TIFF OMITTED] 30663.040
    
    [GRAPHIC] [TIFF OMITTED] 30663.041
    
    [GRAPHIC] [TIFF OMITTED] 30663.042
    
    [GRAPHIC] [TIFF OMITTED] 30663.043
    
    [GRAPHIC] [TIFF OMITTED] 30663.044
    
    [GRAPHIC] [TIFF OMITTED] 30663.045
    
    [GRAPHIC] [TIFF OMITTED] 30663.046
    
    [GRAPHIC] [TIFF OMITTED] 30663.047
    
    [GRAPHIC] [TIFF OMITTED] 30663.048
    
    [GRAPHIC] [TIFF OMITTED] 30663.049
    
    [GRAPHIC] [TIFF OMITTED] 30663.050
    
    [GRAPHIC] [TIFF OMITTED] 30663.051
    
    [GRAPHIC] [TIFF OMITTED] 30663.052
    
    [GRAPHIC] [TIFF OMITTED] 30663.053
    
    [GRAPHIC] [TIFF OMITTED] 30663.054
    
    [GRAPHIC] [TIFF OMITTED] 30663.055
    
    [GRAPHIC] [TIFF OMITTED] 30663.056
    
    [GRAPHIC] [TIFF OMITTED] 30663.057
    
    [GRAPHIC] [TIFF OMITTED] 30663.058
    
    [GRAPHIC] [TIFF OMITTED] 30663.059
    
    [GRAPHIC] [TIFF OMITTED] 30663.060
    
    [GRAPHIC] [TIFF OMITTED] 30663.061
    
    [GRAPHIC] [TIFF OMITTED] 30663.062
    
    [GRAPHIC] [TIFF OMITTED] 30663.063
    
    [GRAPHIC] [TIFF OMITTED] 30663.064
    
    [GRAPHIC] [TIFF OMITTED] 30663.065
    
    [GRAPHIC] [TIFF OMITTED] 30663.066
    
    [GRAPHIC] [TIFF OMITTED] 30663.067
    
    [GRAPHIC] [TIFF OMITTED] 30663.068
    
    [GRAPHIC] [TIFF OMITTED] 30663.069
    
    [GRAPHIC] [TIFF OMITTED] 30663.070
    
    [GRAPHIC] [TIFF OMITTED] 30663.071
    
    [GRAPHIC] [TIFF OMITTED] 30663.072
    
    [GRAPHIC] [TIFF OMITTED] 30663.073
    
    [GRAPHIC] [TIFF OMITTED] 30663.074
    
    [GRAPHIC] [TIFF OMITTED] 30663.075
    
    [GRAPHIC] [TIFF OMITTED] 30663.076
    
    [GRAPHIC] [TIFF OMITTED] 30663.077
    
    [GRAPHIC] [TIFF OMITTED] 30663.078
    
    [GRAPHIC] [TIFF OMITTED] 30663.079
    
    [GRAPHIC] [TIFF OMITTED] 30663.080
    
    [GRAPHIC] [TIFF OMITTED] 30663.081
    
    [GRAPHIC] [TIFF OMITTED] 30663.082
    
    [GRAPHIC] [TIFF OMITTED] 30663.083
    
    [GRAPHIC] [TIFF OMITTED] 30663.084
    
    [GRAPHIC] [TIFF OMITTED] 30663.085
    
    [GRAPHIC] [TIFF OMITTED] 30663.086
    
    [GRAPHIC] [TIFF OMITTED] 30663.087
    
    [GRAPHIC] [TIFF OMITTED] 30663.088
    
    [GRAPHIC] [TIFF OMITTED] 30663.089
    
    [GRAPHIC] [TIFF OMITTED] 30663.090
    
    [GRAPHIC] [TIFF OMITTED] 30663.091
    
                                    

</pre></body></html>
